                        OFFICE OF
                 THE INSPECTOR GENERAL
                       U.S. NUCLEAR
                 REGULATORY COMMISSION


                      Independent Evaluation of NRC’s
                        Implementation of the Federal
                      Information Security Management
                       Act (FISMA) for Fiscal Year 2004

                     OIG–04-A-22 September 30, 2004




              EVALUATION REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                         September 30, 2004



MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum/RA/
                           Assistant Inspector General for Audits


SUBJECT:                   INDEPENDENT EVALUATION OF NRC’S
                           IMPLEMENTATION OF THE FEDERAL
                           INFORMATION SECURITY MANAGEMENT ACT
                           (FISMA) FOR FISCAL YEAR 2004 (OIG-04-A-22)


This evaluation report titled, Independent Evaluation of NRC’s Implementation of
the Federal Information Security Management Act for Fiscal Year 2004.
Appendix B contains the OIG 2004 Federal Information Security Management
Act Report template to the Office of Management and Budget. This report
reflects the results of the independent evaluation performed by Richard S.
Carson & Associates, Inc. on behalf of the NRC Office of the Inspector General.

Based on its review, Richard S. Carson & Associates, Inc., determined that the
NRC’s information security program has the following weaknesses:

   Ø NRC Management Directive 12.5, NRC Automated Information Security
     Program, contains sensitive information that is publicly available.
   Ø Several required security documents need updating.
   Ø Some security processes need further improvement.
The weaknesses identified are not significant deficiencies or reportable
conditions. During an exit conference on September 22, 2004, NRC officials
provided comments concerning the draft audit report and opted not to submit
formal written comments to this report.

If you have any questions or wish to discuss this report, please call me at 415-
5915 or Beth Serepca at 415-5911.

Attachment: As stated
Distribution List

B. John Garrick, Chairman, Advisory Committee on Nuclear Waste
Mario V. Bonaca, Chairman, Advisory Committee on Reactor Safeguards
John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
Dennis K. Rathbun, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Patricia G. Norry, Deputy Executive Director for Management Services, OEDO
William F. Kane, Deputy Executive Director for Homeland Protection
  and Preparedness, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research
  and State Programs, OEDO
Ellis W. Merschoff, Deputy Executive Director for Reactor Programs, OEDO
William M. Dean, Assistant for Operations, OEDO
Jacqueline E. Silber, Chief Information Officer
Michael L. Springer, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region IV
                         “Independent Evaluation of
                        NRC’s Implementation of the
               Federal Information Security Management Act
                            For Fiscal Year 2004”




                          Contract Number: GS-00F-0001N
                        Delivery Order Number: DR-36-03-346

                                              September 24, 2004




“The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official U.S. Nuclear
              Regulatory Commission position, policy, or decision, unless so designated by other official documentation.”
[Page intentionally left blank]
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2004


EXECUTIVE SUMMARY


BACKGROUND

      Richard S. Carson & Associates, Inc., on behalf of the Office of the Inspector General of
      the U.S. Nuclear Regulatory Commission (NRC), completed this Independent Evaluation
      Report, and the NRC 2004 Office of Management and Budget (OMB) Federal
      Information Security Management Act (FISMA) Report, which is included as Appendix
      B. The Independent Evaluation Report identifies specific findings and recommendations
      for resolution of identified weaknesses.

PURPOSE

      The objectives of the independent evaluation of NRC’s information security program
      were to:

          1. Test the effectiveness of information security policies, procedures, and practices
             of a representative subset of the agency’s information systems; and
          2. Assess compliance with the Federal Information Security Management Act and
             related information security policies, procedures, standards, and guidelines.

RESULTS IN BRIEF

      Over the past year, NRC continued to improve its security program. For example, NRC:

          •   Completed a majority of program and system level corrective actions identified in
              the FY 2003 FISMA review, including additional corrective actions identified
              throughout FY 2004 (approximately 83%).
          •   Completed a risk assessment, security plan, business continuity plan, and certified
              and accredited one of the new major applications under development.
          •   Completed annual business continuity plan testing for sixteen of the seventeen
              major applications and general support systems at NRC.
          •   Developed a process for updating the NRC system inventory on a semi-annual
              basis.
          •   Developed procedures for implementing security configurations on NRC servers.

      However, the independent evaluation identified the following information security
      program weaknesses. None of these weaknesses are considered to be significant
      deficiencies or reportable conditions as defined in OMB guidance.

          •   NRC Management Directive 12.5, NRC Automated Information Security
              Program, contains sensitive information, but it was publicly available.



                                               i
                                                                          Independent Evaluation of
                                                           NRC’s Implementation of FISMA for FY 2004


        •   Agreements with the two Federal agencies providing services to NRC need
            updating.
        •   Four system certifications and accreditations need updating.
        •   One risk assessment needs updating.
        •   One system business continuity plan needs updating.
        •   NRC’s corrective action tracking process needs further improvement.
        •   The agency’s plan of action and milestones needs improvement.
        •   The agency’s certification and accreditation process needs improvement.
            Specifically, the agency needs to develop processes for (1) ensuring security
            documentation supporting system certification and accreditation is consistent with
            National Institute of Standards and Technology guidelines, (2) ensuring security
            protection requirements (confidentiality, integrity, availability) are consistently
            defined in security plans and self-assessments, and (3) ensuring security test and
            evaluation in support of certification and accreditation is comprehensive and
            independent.

RECOMMENDATIONS

     This report makes sixteen recommendations to the Executive Director for Operations. A
     consolidated list of recommendations can be found on page 31 of this report.

AGENCY COMMENTS

     On September 22, 2004, the Executive Director for Operations provided comments
     concerning the draft Independent Evaluation Report and NRC 2004 OMB FISMA
     Report. We modified the reports as we determined appropriate in response to these
     comments.




                                             ii
                                                                          Independent Evaluation of
                                                           NRC’s Implementation of FISMA for FY 2004


ABBREVIATIONS AND ACRONYMS


ADAMS     Agencywide Document Access and Management System
BCP       Business Continuity Plan
C&A       Certification and Accreditation
CFR       Code of Federal Regulations
CIO       Chief Information Officer
DDMS      Digital Data Management System
DOI       Department of the Interior
FFS       Federal Financial System
FISMA     Federal Information Security Management Act
FPPS      Federal Personnel and Payroll System
FY        Fiscal Year
IPSS      Integrated Personnel Security System
ISSO      Information System Security Officer
IT        Information Technology
ITSSTS    Information Technology Systems Security Tracking System
LAN/WAN   Local Area Network/Wide Area Network
MD        Management Directive
NBC       National Business Center
NIH       National Institutes of Health
NIST      National Institute of Standards and Technology
NRC       U.S. Nuclear Regulatory Commission
OCIO      Office of the Chief Information Officer
OIG       Office of the Inspector General
OMB       Office of Management and Budget
POA&M     Plan of Action and Milestones
SITSO     Senior Information Technology Security Officer
SP        Special Publication
US-CERT   United States Computer Emergency Readiness Team




                                            iii
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2004




[Page intentionally left blank]




              iv
                                                                                                   Independent Evaluation of
                                                                                    NRC’s Implementation of FISMA for FY 2004


TABLE OF CONTENTS


Executive Summary ....................................................................................................... i

1 Background .............................................................................................................. 1

2 Purpose..................................................................................................................... 1

3 Findings .................................................................................................................... 2
    3.1     System Inventory and Information Technology Security Performance...........................3
            3.1.1 NRC Programs and Systems ................................................................................3
            3.1.2 Contractor Operations or Facilities ....................................................................5
            3.1.3 Certification and Accreditation............................................................................8
            3.1.4 Security Control Costs and Information Technology Investments.....................10
            3.1.5 Security Control Test and Evaluation ................................................................12
            3.1.6 Contingency Planning and Testing ....................................................................12
            3.1.7 System Inventory ................................................................................................13
            3.1.8 E-Authentication.................................................................................................14
            3.1.9 Senior Agency Information Security Officer ......................................................14
    3.2     Assessment of the POA&M Process ..............................................................................15
    3.3     Assessment of the Certification and Accreditation Process...........................................19
    3.4     Security Configurations and Patching............................................................................25
    3.5     Incident Detection and Handling Procedures, and Incident Reporting and Analysis ....27
    3.6     Security Awareness and Training...................................................................................29
4 Consolidated List of Recommendations.............................................................. 31

5 OIG Response to Agency Comments................................................................... 32


Appendices

       Appendix A:           Scope and Methodology ............................................................................33
       Appendix B:           NRC 2004 OMB FISMA Report ...............................................................35




                                                                 v
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2004




[Page intentionally left blank]




              vi
                                                                                     Independent Evaluation of
                                                                      NRC’s Implementation of FISMA for FY 2004


1       Background

Richard S. Carson & Associates, Inc. (Carson Associates), on behalf of the Office of the
Inspector General (OIG) of the U.S. Nuclear Regulatory Commission (NRC), completed this
Independent Evaluation Report, and the NRC 2004 Office of Management and Budget (OMB)
Federal Information Security Management Act (FISMA) Report, which is included as Appendix
B. The Independent Evaluation Report identifies specific findings and recommendations for
resolution of identified weaknesses.

On December 17, 2002, the President signed the E-Government Act of 2002 (Public Law 107-
347), which includes the Federal Information Security Management Act of 20021. FISMA
outlines the information security management requirements for agencies, which include an
annual review by the agency, an independent evaluation of an agency’s information security
program and practices by the agency’s inspectors general, and an evaluation of the effectiveness
of information security control techniques. FISMA also requires an assessment of compliance
with requirements and related information security policies, procedures, standards, and
guidelines. The annual agency reviews and the OIG independent evaluations are intended to
provide agencies with the information needed to determine the effectiveness of overall security
programs and to develop strategies and best practices for improving information security.

The independent evaluation comprises four elements — evaluation of the implementation of
NRC’s information security program, evaluation of progress towards completing corrective
actions addressed within the FY 2003 Plan of Action and Milestones (POA&M), review of the
system self-assessments prepared by NRC, and verification and testing of information security
controls for six representative information systems. Four of the systems are NRC systems, and
two of the systems are systems used by NRC, but owned by another Federal agency. The results
of the independent evaluation are presented in this Independent Evaluation Report, which
presents recommendations to address the weaknesses identified during the evaluation.

2       Purpose

The objectives of the independent evaluation of NRC’s information security program were to:

    1. Test the effectiveness of information security policies, procedures, and practices of a
       representative subset of the agency’s information systems; and
    2. Assess compliance with FISMA and related information security policies, procedures,
       standards, and guidelines.




1
 The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the E-
Government Act of 2002 (Public Law 107-347), and replaces the Government Information Security Reform Act,
which expired in November 2002.


                                                      1
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2004


3        Findings

Over the past year, NRC continued to improve its security program. For example, NRC:

    •    Completed a majority of program and system level corrective actions identified in the FY
         2003 FISMA review, including additional corrective actions identified throughout FY
         2004 (approximately 83%).
    •    Completed a risk assessment, security plan, business continuity plan, and certified and
         accredited one of the new major applications under development.
    •    Completed annual business continuity plan testing for sixteen of the seventeen major
         applications and general support systems at NRC.
    •    Developed a process for updating the NRC system inventory on a semi-annual basis.
    •    Developed procedures for implementing security configurations on NRC servers.

However, the independent evaluation identified the following information security program
weaknesses. None of these weaknesses are considered to be significant deficiencies2 or
reportable conditions3 as defined in OMB guidance.

    •    NRC Management Directive 12.5, NRC Automated Information Security Program,
         contains sensitive information, but it was publicly available.
    •    Agreements with the two Federal agencies providing services to NRC need updating.
    •    Four system certifications and accreditations need updating.
    •    One risk assessment needs updating.
    •    One system business continuity plan needs updating.
    •    NRC’s corrective action tracking process needs further improvement.
    •    The agency’s POA&M needs improvement.
    •    The agency’s certification and accreditation process needs improvement. Specifically,
         the agency needs to develop processes for (1) ensuring security documentation
         supporting system certification and accreditation is consistent with National Institute of
         Standards and Technology (NIST) guidelines, (2) ensuring security protection
         requirements (confidentiality, integrity, availability) are consistently defined in security
         plans and self-assessments, and (3) ensuring security test and evaluation in support of
         certification and accreditation is comprehensive and independent.



2
  A significant deficiency is a weakness in an agency’s overall information systems security program or
management control structure, or within one or more information systems, that significantly restricts the capability
of the agency to carry out its mission or compromises the security of its information, information systems,
personnel, or other resources, operations, or assets.
3
  A reportable condition exists when a security or management control weakness does not rise to level of a
significant deficiency, yet is still important enough to be reported to internal management and/or external agencies.


                                                           2
                                                                                 Independent Evaluation of
                                                                  NRC’s Implementation of FISMA for FY 2004


The following sections present the detailed findings from the independent evaluation. The
format of the following sections is based on the sections of the NRC 2004 OMB FISMA Report,
which can be found in Appendix B.

3.1       System Inventory and Information Technology Security Performance

NRC 2004 OMB FISMA Report Section A

3.1.1 NRC Programs and Systems

NRC 2004 OMB FISMA Report A.1.a, A.1.b, A.3.f

NRC Programs

Carson Associates reviewed NRC’s one program. NRC Management Directive (MD) 12.5, NRC
Automated Information Security Program, defines NRC’s automated information systems
security program. MD 12.5 was updated in September 2003 to include the following updates:

      •   New security policies and procedures developed since MD 12.5 was last updated were
          incorporated. These policies include, but are not limited to Guidelines for the Use of
          Password Checking Software, Incident Response Procedures, Operating and System
          Software Maintenance Procedures, and NRC’s Firewall Policy.
      •   The system identification diagram that was used to categorize NRC information systems
          was removed and replaced with a full description of each system category (major
          application, general support system, listed, and other). MD 12.5 also includes a new
          table, “Security Planning and Reporting Requirements by System Type.”
      •   Additional text was added to clarify who is responsible for developing and maintaining
          the system inventory. It states that Regional Administrators and Office Directors are to
          provide input into the system inventory, and the system sponsors/owners are responsible
          for ensuring that all office-sponsored systems are properly categorized and accurately
          reflected in the master inventory of systems maintained by the Office of the Chief
          Information Officer (OCIO). Each office will work with OCIO to update and revalidate
          the master inventory of systems on an annual basis.

The various policies included in MD 12.5 can be found on the NRC Customer Service Branch
website, and the on-line versions are up-to-date. OCIO also provides supplemental information
security guidance on the NRC internal web site, including:

      •   NRC Password and Warning Banner Guidance
      •   Guidelines for Modem Usage
      •   Processing and Handling Safeguards Information in the NRC Unclassified Local
          Area/Wide Area Network Environment
      •   Templates for risk assessments, security plans, and security test and evaluation plans.



                                                   3
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2004


MD 12.5 Contains Sensitive Information, But It Was Publicly Available

During the FY 2004 FISMA review, Carson Associates discovered that MD 12.5 was available
on the NRC public web site. In the past, this directive was only available on the NRC internal
web site. According to NRC policy and regulations, the NRC Management Directive System has
always been available to the public either on CD-ROM, or in the Commission’s Public
Document Room. However, publication of the Management Directives on the NRC public web
site provides a much larger population, both in the United States and internationally, access to
the documents.

MD 12.5 contains sensitive information that should not be disclosed to the public. For example,
MD 12.5 includes the NRC firewall policy, with a note that the current firewall policy can be
found on the NRC internal web site. However, the agency has determined that this policy is too
sensitive to be posted even on the NRC internal web site, and it can only be obtained by
requesting it from OCIO.

NRC has removed MD 12.5 from the NRC public web site and from the Agencywide Document
Access and Management System (ADAMS). However, Carson Associates found at least one
document in ADAMS with MD 12.5 attached, and the public can still access MD 12.5 in the
NRC Public Document Room.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   1. Remove sensitive data from Management Directive 12.5, NRC Automated Information
      Security Program, which should not be disclosed to the public.

NRC Systems

NRC has a total of seventeen production systems – thirteen are major applications and four are
general support systems. NRC also has two systems currently in development. Carson
Associates reviewed four of the seventeen production systems. The system evaluation objectives
were to review and evaluate the security controls for the systems. The systems were evaluated
by reviewing system documentation maintained by OCIO. As recommended by OMB, Carson
Associates reviewed the following types of documents for adherence to standards and
consistency with guidelines issued by NIST.

   •   Risk Assessment
   •   Security Plan
   •   Business Continuity Plan
   •   Security Test and Evaluation Plan and Report
   •   Certification and Accreditation Report
   •   Privacy Impact Assessment
   •   Draft FY 2004 Self-Assessment



                                               4
                                                                                Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2004


The documents were reviewed to determine whether they are consistent with NIST guidance and
whether they describe the security controls in place for the systems. Carson Associates found
that in some cases (1) security documentation is not consistent with NIST guidelines, (2) security
protection requirements are inconsistent within system security documentation, and (3) findings
and recommendations resulting from testing system security controls are not consistently being
tracked. Separate system evaluation reports were prepared and delivered to the agency. The
overall findings from the system evaluations are discussed further in Section 3.2, Assessment of
the POA&M Process, and Section 3.3, Assessment of the Certification and Accreditation
Process.

3.1.2 Contractor Operations or Facilities

NRC 2004 OMB FISMA Report A.1.c, A.3.a, A.3.b, A.3.c, A.3.f

NRC uses NIST Special Publication (SP) 800-26, Self-Assessment Guide for Information
Technology Systems, for reviewing their own programs and systems. However, NRC primarily
uses methods other than NIST SP 800-26 for reviewing contractor operations and facilities.
NRC has a total of seven contractor operations or facilities, and Carson Associates reviewed
three of them. NRC presumes that the two agencies supporting NRC are also following FISMA
and NIST guidelines (these agencies have not allowed NRC to conduct their own review).
Carson Associates verified that there are agreements in place with the two Federal agencies
providing services to NRC. Carson Associates also reviewed a recent security review for one
contractor facility.

For two contractors who provide support to NRC, and one contractor who maintains one of
NRC’s major applications, management officials stated that these contractors, who have access
to NRC information technology (IT) resources, must have security guidelines written into their
contracts, must follow NRC security procedures, and new contracts must specify use of NIST
guidance for security. Carson Associates could not determine how NRC ensures operations or
facilities at one location are adequately secure and meet Federal policy and guidelines.

Carson Associates also met with OCIO staff to discuss any other methods NRC uses to ensure
contractor operations or facilities are adequately secure and meet the requirements of FISMA,
OMB policy and NIST guidelines, national security policy, and agency policy. OCIO staff
stated that for two of the contractors, they are treated just like one of the NRC’s regional offices
– they are considered trusted foreign networks. There is security language in the contracts
currently in place with the two contractors, and NRC has day-to-day relationships with both
companies.

Agreements with the Two Federal Agencies Providing Services to NRC Need Updating

Carson Associates reviewed services provided to NRC by the Department of the Interior (DOI),
and the National Institutes of Health (NIH). NRC uses two systems hosted and supported by
DOI – the Federal Financial System (FFS) and the Federal Personnel and Payroll System
(FPPS). NIH provides NRC with Internet connectivity, and two applications that are part of the
Fee Systems are housed on a mainframe located at NIH. The objective of the reviews was to
determine whether the services and facilities provided by DOI and NIH are adequately secure


                                                  5
                                                                                      Independent Evaluation of
                                                                       NRC’s Implementation of FISMA for FY 2004


and meet the requirements of FISMA, OMB policy and NIST guidelines, national security
policy, and agency policy.

Department of the Interior

For FFS and FPPS, Carson Associates attempted to get up-to-date security documentation for the
two systems in order to review the security controls in place for the systems. For most of the
month of July 2004, Carson Associates was in contact with several DOI staff members in both
the National Business Center4 (NBC) and the DOI OIG. Carson Associates was in possession of
some documents for both systems, but needed to know if the documents were up-to-date, and
needed other documents necessary to conduct a system review. Most of the documents were
from an interim accreditation that was granted in FY 2003. Both systems were fully accredited
in FY 2004, so the intent was to obtain the documentation supporting the full accreditation.

Carson Associates and the NRC OIG had a conference call with the DOI OIG to discuss a
current FISMA study being conducted by the DOI OIG on their information systems, including
FFS and FPPS. They described what they were doing for the study and discussed some of the
issues that had been found so far. They decided to do the study because of the large number of
requests from agencies using NBC services for information on their security controls and
practices. They will do this review every year, and for future years the reports are planned to be
ready by the end of July (so agencies can use them for their FISMA reviews).

The DOI review found that NBC’s information security management program and practices met
FISMA requirements with a few minor exceptions. The DOI Evaluation Report, “Review of
Information System Security over Systems and Applications Used by the National Business
Center to Provide Services to Non-Department of the Interior Clients,” stated that overall
agreements between NBC and their clients are supposed to include three separate agreements.

    •   Service Level Agreements – defines specific tasks to be performed and roles and
        responsibilities of the respective parties.
    •   Security Service Agreements – defines security roles and responsibilities of the
        respective parties.
    •   Interconnect Security Agreements – defines the roles and responsibilities for client
        network management in connecting to NBC systems and applications.

The DOI OIG review found that of the fifteen agreements reviewed, only one had a Security
Service Agreement, and none had Interconnect Security Agreements. Carson Associates was
provided a Security Services Agreement between NBC and NRC. Carson Associates was not
provided with a Service Level Agreement or an Interconnect Security Agreement between NBC
and NRC.



4
 The DOI National Business Center serves as the systems manager and general purpose computing host for systems
supporting budget, procurement and contracts, personnel management, financial and accounting, E-government, and
other general administrative systems.


                                                       6
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2004


The DOI report also stated that to ensure that risks are understood and security protections are
established to reduce the risks to acceptable levels, DOI believes that an exchange of system
security plans between NBC and its clients should be accomplished. This exchange will provide
each party the necessary information to understand the level of importance each party assigns to
the sensitivity and criticality of the systems and information as well as describing the respective
control environments. Through these exchanges NBC will have a better understanding of the
risks to its systems and external clients’ requirements to ensure that appropriate protections are
implemented.

The Security Services Agreement between NBC and the NRC does state that the NBC will
provide copies of certification and accreditation documents to clients on request, however, it
does not specifically mention security plans as a type of document that NBC will provide.
Carson Associates also found a few places in the Security Services Agreement where
information is not accurate or up-to-date. A link to an NBC web page on page three does not
work, and the NRC contact information on page ten needs to be updated.

RECOMMENDATIONS

   The Office of the Inspector General recommends that the Executive Director for Operations:

   2. Update the Security Services Agreement between the Department of the Interior National
      Business Center and NRC to include a requirement to exchange relevant system security
      plans.

   3. Develop a Service Level Agreement and Interconnect Security Agreement between the
      Department of the Interior National Business Center and NRC as described in the DOI
      Evaluation Report, “Review of Information System Security over Systems and
      Applications Used by the National Business Center to Provide Services to Non-
      Department of the Interior Clients.”

National Institutes of Health

Two of the Fee Systems applications reside on a mainframe housed in the NIH Data Center.
Carson Associates reviewed certification and accreditation documentation for the NIH Data
Center as part of the overall system review of the Fee Systems. The documentation was
reviewed in order to determine whether agency program officials and the agency Chief
Information Officer (CIO) have used appropriate methods to ensure that services provided by
NIH for their program and systems are adequately secure and meet the requirements of FISMA,
OMB policy and NIST guidelines, national security policy, and agency policy. NIH also
provides NRC with Internet connectivity.

NRC developed a Memorandum of Understanding between NRC and NIH, dated January 2003.
It is a one page document describing the services NIH provides to NRC and states that all parties
agree to ensure compliance with applicable Federal and respective agency automated
information systems security policies, mandates and instructions that will ensure the continued
confidentiality, integrity, and availability of information being processed by or through this



                                                 7
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2004


system. The Memorandum of Understanding is to be reviewed annually and will remain in
effect until terminated in writing.

NIH and NRC also developed a Joint Network Interconnection Security Agreement, dated
December 2003. This is a more comprehensive agreement between the two agencies and
outlines system security considerations for both agencies. The document includes sections
describing the purpose, authority, and interconnection statement of requirements. The document
also includes a section describing system security considerations, including services offered, data
sensitivity, user community, information exchange security, communication/IT security points of
contact, responsible parties, trusted behavior expectations, formal security policy, and incident
reporting. The document outlines NIH and NRC responsibilities regarding physical security,
identification and authentication, anti-virus software, system configuration, warning banners,
remote access, wireless security, and encryption. It concludes with a discussion of network
management, compliance, and confidentiality.

The Network Interconnection Security Agreement states that a Service Level Agreement signed
by NIH and NRC governs certain services provided by NIH for a fee. NRC provided a copy of a
Service Level Agreement between NIH and NRC that was signed by NRC at the end of March
2003, and by NIH at the beginning of April 2003. The agreement became effective April 1,
2003, and remained in effect until September 30, 2003. The agreement describes the services
provided by NIH to NRC, including network support and maintenance services. The agreement
discusses services not supported, customer responsibilities, and costs to NRC. Appendices to the
agreement include an NRC contact list, billing information, escalation procedures, and NRC
points of contact for problem resolution. The agency provided a copy of a draft of the agreement
that would replace the agreement that expires September 30, 2003, but was not able to provide a
final, signed agreement.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   4. Update the Service Level Agreement between NRC and the National Institutes of Health.

3.1.3 Certification and Accreditation

NRC 2004 OMB FISMA Report A.2.a

Fourteen of the seventeen systems have full accreditation, and three have interim accreditations.
The interim accreditation for one system expired in July 2004. One system was granted an
extension to the interim accreditation and it will expire at the end of September 2004. Full
accreditation of these two systems was scheduled for 4th Quarter FY 2004, and there are
POA&M items for tracking the accreditations, however the accreditations have not been
completed as of September 15, 2004. Full accreditation for the third system with interim
accreditation is scheduled for the 1st Quarter FY 2005.




                                                 8
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2004


Four Certification and Accreditations are Not Up-To-Date

NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal Information
Systems, states that security certification directly supports security accreditation by providing
authorizing officials with important information necessary to make credible, risk-based decisions
on whether to place information systems into operation or continue their current operation. This
information is produced by assessing the security controls in the information system to determine
the extent to which the controls are implemented correctly, operating as intended, and producing
the desired outcome with respect to meeting the security requirements for the system.

While none of the seventeen systems have signed certification and accreditation (C&A)
memoranda that are more than three years old, five of the seventeen systems have C&A reports
that are more than three years old. The C&A reports are the documents that provided the
authorizing officials with the information necessary to accredit the systems. Accreditation
memoranda for the five systems with outdated C&A reports were not signed until almost a year
(or more) had past since the C&A testing was conducted. Re- accreditation of one of the five
systems with an outdated C&A report was scheduled for 4th Quarter FY 2004, and there is a
POA&M item for tracking the re-accreditation, however the re-accreditation had not been
completed as of September 15, 2004. Re-accreditation of the remaining four systems is
scheduled for FY 2005.

RECOMMENDATIONS

   The Office of the Inspector General recommends that the Executive Director for Operations:

   5. Re-certify and re-accredit the NRC Data Center/Telecommunications System.

   6. Re-certify and re-accredit the NRC Local Area Network/Wide Area Network.

   7. Re-certify and re-accredit the Emergency Response Data System.

   8. Re-certify and re-accredit the Emergency Telecommunications System.

One Risk Assessment is Not Up-To-Date

All seventeen systems have risk assessments. Five of the systems’ risk assessments should have
been updated this fiscal year, as they were more than three years old. Four of the outdated risk
assessments were updated in FY 2004, and the review team verified and validated the updates.
The risk assessment for the NRC local area network/wide area network (LAN/WAN) has not
been updated since February 2001. However, separate updates to the risk assessment were
developed as LAN/WAN subsystems were certified and accredited. One of the systems in
development, the Digital Data Management System (DDMS), also has a risk assessment.




                                                9
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2004


RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   9. Update the NRC Local Area Network/Wide Area Network Risk Assessment.

All Security Plans are Up-To-Date

Sixteen of the seventeen systems have security plans. The security plan for the seventeenth
system is scheduled for completion by the end of September 2004. Four of the systems’ security
plans should have been updated this fiscal year, as they were more than three years old. All four
of the outdated security plans were updated in FY 2004, and the review team verified and
validated the updates. One of the systems in development, DDMS, also has a security plan.

MD 12.5 also requires security plans for “listed” systems, and systems that process classified and
unclassified safeguards information. A “listed” system is a computerized information system or
application that processes sensitive information requiring additional security protections, and that
may be important to the operations of an NRC office or region, but is not a major application
when viewed from an agency perspective. For example, some NRC offices have developed a
number of additional non-major applications that are processing sensitive information such as
Privacy Act information, or sensitive contractual and financial information.

As a result of a POA&M item from the agency’s own FY 2003 FISMA review, the agency
issued a memorandum in February 2004 instructing Office Directors and Regional
Administrators to ensure that information systems sponsored by their office that process or store
classified information, safeguards information, or sensitive information have individual security
plans. The memorandum included instructions for preparing the security plans, as well as a
template, as attachments. Carson Associates obtained a report from the agency’s internal
tracking system, the Information Technology Systems Security Tracking System (ITSSTS), of
all “listed” systems at NRC and the status of their security plans. Carson Associates selected
seventeen “listed” systems to check for the existence of security plans. Security plans for
thirteen of the seventeen systems were located in files maintained by OCIO. Security plans for
four of the systems were not on file with OCIO. Security plans for these systems have either
been requested, or sent back for revisions, and their current status is reflected in the ITSSTS
report.

3.1.4 Security Control Costs and Information Technology Investments

NRC 2004 OMB FISMA Report A.2.b, A.3.g

NRC has developed several policies and procedures to ensure that security control costs are
integrated into the life cycle of NRC systems. These include MD 12.5, MD 2.2, Capital
Planning and Investment Control, and MD 2.5, System Development Life Cycle Management
Methodology.

The Exhibit 53 submitted to OMB in 2004 for budget year 2005 reflects that IT security costs are
included in the investments for all NRC major applications and general support systems with the


                                                 10
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2004


exception of two systems. The agency stated that these two systems had less than one half of
one percent in security costs; therefore per OMB guidance they were rounded to zero. All
system levels POA&Ms submitted by the agency at the end of the 4th Quarter FY 2004 have
unique project identifiers that match those used on the Exhibit 53, and include total security costs
for completing the corrective actions.

A major IT investment (Tier 1) meets or exceeds a control phase cost threshold of $1,500,000 (or
$500,000 for financial management systems), or has other characteristics that are of particular
interest to NRC management or to the OMB. A Tier 2 investment is one that meets or exceeds a
control phase cost threshold of $500,000 (but below the Tier 1 $1,500,000 threshold), or requires
some level of management control and oversight to effectively deal with special security,
architecture, coordination, staffing, or other concerns presented by these investments. A Tier 3
investment is one that does not exceed a control phase cost threshold of $500,000 and has no
other special characteristics that would classify it as Tier 1 or Tier 2.

Office Directors and Regional Administrators must submit information on office or regional IT
investments, needs, and plans to the CIO in accordance with NRC’s capital planning and
investment control process, or as requested, to support agencywide IT planning, budgeting, or
investment control.

The CIO is responsible for the following related to approval of major IT investments:

   •   Reviewing and approving security certifications and accreditations for NRC information
       systems, including risk analysis results, security plans, contingency plans, and security-
       related elements of investment justifications submitted in accordance with NRC capital
       planning and investment control.
   •   Developing and implementing agencywide IT planning, budgeting, and investment
       control policies, processes, and procedures that support NRC’s mission and meet the
       requirements of Federal statutes and regulations and are consistent with NRC’s overall
       planning, budgeting, and performance management process.
   •   Reviewing and approving business cases for all IT investments during the selection
       phase, and for referring Tier 1 IT investments to the Executive Director for Operations
       for review and approval.
   •   Ensuring that proposed new IT investments are not duplicative of other planned or
       ongoing projects or application systems, unless they are intended to replace those projects
       or systems.
   •   Determining which IT investments should be recommended to the Executive Director for
       Operations as major investments reportable to OMB.




                                                 11
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2004


3.1.5 Security Control Test and Evaluation

NRC 2004 OMB FISMA Report A.2.c

FISMA requires agencies to test the management, operational, and technical controls of every
information system identified in their inventory no less than annually. OMB has instructed
agencies to use NIST SP 800-26 to conduct the annual reviews. NIST SP 800-26 is based on the
Chief Information Officer Council’s “Federal Information Technology Security Assessment
Framework” (the Framework). The Framework comprises five levels to guide agency
assessments of their security programs and assist in prioritizing efforts for improvement. Level 1
reflects that an asset has documented security policy. At Level 2, the asset also has documented
procedures and controls to implement the policy. For Level 3, procedures and controls have
been implemented to protect the asset. Level 4 indicates that procedures and controls are tested
and reviewed. Finally, at Level 5, the asset has procedures and controls fully integrated into a
comprehensive program.

NRC performs a review of security practices and security controls for each major application and
general support system by performing annual self-assessments on the systems. The self-
assessments are based on NIST SP 800-26. Carson Associates received draft self-assessments
for all seventeen NRC major applications and general support systems, as well as for one of the
systems currently in development. The final self-assessments were received on September 15,
2004.

As in previous years, NRC developed a modified version of NIST SP 800-26, and all elements of
NIST SP 800-26 were included. Some of the self-assessment questions were re-worded to be
clearer and to make them more applicable to NRC’s environment, and a few additional questions
were added.

3.1.6 Contingency Planning and Testing

NRC 2004 OMB FISMA Report A.2.d, A.2.e

One Contingency Plan Is Not Up-To-Date

Sixteen of the seventeen systems have business continuity plans (BCPs), also referred to as
contingency plans. Four of the systems’ BCPs should have been updated this fiscal year, as they
were more than three years old. Three of the outdated BCPs were updated in FY 2004, and the
review team verified and validated the updates. The BCP for the LAN/WAN has not been
updated since July 2001. However, separate updates to the BCP were developed as LAN/WAN
subsystems were certified and accredited. One of the systems in development, DDMS, also has a
contingency plan.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   10. Update the NRC Local Area Network/Wide Area Network Business Continuity Plan.


                                                12
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2004




All Contingency Plans Have Been Tested

All sixteen BCPs have been tested in the past fiscal year (one system does not have a BCP). One
BCP was tested in the 4th Quarter FY 2003, two were tested in the 2nd Quarter FY 2004, eight
were tested in the 3rd Quarter FY 2004, and five were tested in the 4th Quarter FY 2004. The
review team verified and validated the majority of the BCP test results, and will verify and
validate all of the BCP test results during ongoing POA&M validation.

Critical Infrastructure Protection

NRC’s Critical Infrastructure Protection Plan has been updated in accordance with OMB
Memorandum M-04-15, Development of Homeland Security Presidential Directive – 7 Critical
Infrastructure Protection Plans to Protect Federal Critical Infrastructures and Key Resources.
It includes a review of the agency’s operations, functions, and services. The review concluded
that NRC has no national critical operations and services.

3.1.7 System Inventory

NRC 2004 OMB FISMA Report A.3.d, A.3.e

MD 12.5 was updated in September 2003, and additional text was added to clarify who is
responsible for developing and maintaining the system inventory. The CIO is responsible for
developing and maintaining an annual inventory of NRC automated information systems
(including major national security systems) operated by or under the control of the agency. The
identification of all major information systems in the inventory must include an identification of
the interfaces between each system and all other systems and networks, including those not
operated by or under the control of the agency. Regional Administrators and Office Directors
must ensure that information systems sponsored by their office are included in the master
inventory maintained by OCIO. System sponsors/owners must ensure that all office-sponsored
IT systems are properly categorized and accurately reflected in the master inventory of systems
maintained by OCIO. Each office will work with OCIO to update and revalidate the master
inventory of systems on an annual basis.

Four categories of systems are to be included on the master inventory: major applications,
general support systems, listed systems, and other systems. “Listed” systems were described
earlier in Section 3.1.3, Certification and Accreditation. MD 12.5 defines “Other” as a system
that does not require additional security protections, and the information being processed by the
system is adequately protected by the security provided by the NRC LAN/WAN. This
categorization assumes that OCIO and the sponsor have first jointly decided that the application
is appropriately called a system and is to be included in the NRC master inventory of systems.
Systems in the “Other” category are typically collections of computer-based activities that while
focused on a particular mission function or objective do not have the structure, size, data
sensitivity, or the mission importance to warrant additional special management attention or
additional security controls.




                                                13
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2004


As a result of a POA&M item from the FY 2003 FISMA review, the agency issued a
memorandum in November 2003 asking NRC offices to provide input to OCIO for updating the
agency’s list of systems. The request was combined with a request from the Office of the Chief
Financial Officer for an update of the cost for internal use software. The two requests were
combined in order to minimize the impact on NRC offices. The memorandum states that in the
future, OCIO and the Office of the Chief Financial Officer will be issuing two calls per year to
update/validate the data. The memorandum included as an attachment a list of systems for each
office. Offices were requested to review and update the information as necessary, and provide
inputs by December 15, 2003. The next request was sent in August 2004.

NRC uses the Information Technology Systems Security Tracking System (ITSSTS) to maintain
their system inventory. Their inventory includes not only major applications and general support
systems, but also listed and other systems. Carson Associates also reviewed a system inventory
report from ITSSTS (by office by system) dated August 4, 2004, and it includes a total of five
general support systems, fourteen major applications, 153 listed systems, and 273 other systems.

As a result of a POA&M item from the FY 2003 FISMA review, the agency also began
maintaining a list of interfaces for some of their systems. This list is maintained by a contractor
supporting OCIO and is not a part of ITSSTS.

The OIG is not involved in the development of the agency’s major IT system inventory.
However, the OIG is involved in verification of the inventory as a part of the annual FISMA
review of the agency’s information security program.

3.1.8 E-Authentication

NRC 2004 OMB FISMA Report A.3.h

In accordance with OMB Memorandum M-04-04, E-Authentication Guidance for Federal
Agencies, NRC has begun assessing systems for e-authentication risk. A contract was awarded
in the 3rd Quarter FY 2004 and NRC is on track to meet the December 15, 2004, deadline for
classifying all major applications.

3.1.9 Senior Agency Information Security Officer

NRC 2004 OMB FISMA Report A.3.i

FISMA requires the CIO of each Federal agency to designate a senior agency information
security officer who shall carry out the CIO’s responsibilities described in FISMA; possess
professional qualifications, including training and experience, required to administer the
functions described in FISMA; have information security duties as that official’s primary duty;
and head an office with the mission and resources to assist in ensuring agency compliance with
FISMA.

For the past two years, OMB has asked agencies to report whether they have appointed a senior
information security officer who reports to the agency CIO, even though FISMA does not
specifically state that the official should report to the CIO.


                                                 14
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2004




NRC’s Senior Information Technology Security Officer (SITSO) left the agency in late 2003 and
as of December 12, 2003, the Director of the Program Management, Policy Development, and
Analysis Staff within OCIO is currently serving as acting SITSO. The agency is in the process
of looking for someone to fill the position and anticipates hiring a new SITSO by the end of
October 2004.

The former SITSO did not report directly to the CIO, and the new SITSO, once hired, will also
not report directly to the CIO. The SITSO will report to the Director of the Program
Management, Policy Development, and Analysis Staff within OCIO on day-to-day matters, and
will have direct access to the CIO on any computer security issues.

3.2    Assessment of the POA&M Process

NRC 2004 OMB FISMA Report Section C.1

NRC has two primary tools for tracking the progress of corrective actions related to correcting
weaknesses identified during the annual agency security review, the OIG independent
evaluation, various security documents, and other security studies conducted by or on behalf of
the agency. At a high level, NRC uses the POA&M submitted to OMB to track corrective
actions from the OIG annual independent evaluation, and the agency’s annual review. The
POA&M may also include corrective actions resulting from other security studies conducted by
or on behalf of NRC.

At a more detailed, level, NRC uses the NRC ITSSTS to track the progress of internal corrective
actions (i.e., those not reported to OMB). ITSSTS is used to track more specific corrective
actions, such as those resulting from risk assessments, security test and evaluation associated
with the certification and accreditation process, and contingency plan testing.

The FY 2003 FISMA independent evaluation of NRC’s information security program found that
the agency’s corrective action tracking process needed improvement and that not all corrective
actions resulting from security reviews and testing were being tracked. The OIG recommended
that the agency identify all weaknesses and recommendations from security documentation and
any other security reviews, and determine in which tool the recommendations will be tracked. In
November 2003, OCIO issued a memorandum describing the agency’s information technology
security action item tracking process, strategy, and tools. The memorandum describes the types
of activities that might identify security weaknesses in NRC information technology systems and
describes the two tools used by NRC for tracking the process of security corrective actions – the
FISMA POA&M and ITSSTS. The memorandum also states that NRC updates the status of all
action items in the POA&M and the ITSSTS database at least quarterly, and more frequently as
system testing and other security activities are completed.

NRC had made significant progress in correcting weaknesses identified during the FY 2003
FISMA review. However, the corrective action tracking process needs further improvement, as
findings and recommendations resulting from security reviews and testing are not consistently
being tracked. Carson Associates also found that the agency’s POA&M needs improvement.



                                               15
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2004


NRC Has Made Significant Progress in Correcting FY 2003 Weaknesses

The 4th Quarter FY 2003 POA&M submitted to OMB in October 2003 included a few POA&M
items carried over from the previous POA&M, plus the new weaknesses identified during the FY
2003 FISMA review. NRC reported a total of 10 program level POA&M items to OMB, and 59
system level items for which corrective action is ongoing.

During FY 2004, NRC added 2 more program level items, and 12 more system level items, for a
total of 12 program level items and 71 system level items. During FY 2004, NRC reported as
completed a total of 10 program level items, and 59 system level items. There are 2 program
level and 12 system level items remaining on the POA&M for which corrective action is
ongoing. NRC has completed approximately 83% of the POA&M items on the FY 2004
POA&M submitted to OMB.

Carson Associates, as part of the FY 2004 FISMA review, has been validating closure of
program and system level POA&M items as the agency has submitted their quarterly updates.
Carson Associates verified and validated closure of all POA&M items reported closed during the
4th Quarter FY 2003, and the 1st Quarter FY 2004. Carson Associates is in the process of
validating closure of items reported during the remaining three quarters of FY 2004. Based on
the preliminary analysis of documentation supporting closure of these items, Carson Associates
will also verify and validate their closure.

The Corrective Action Tracking Process Needs Further Improvement

During the system evaluations, Carson Associates found that findings and recommendations
resulting from testing security controls are not consistently being tracked. The following are
some examples.

Certification and Accreditation Testing

The risk assessment for one system identified thirteen risks, and the security test and evaluation
plan and report identified eight risks. A mitigation plan submitted with the certification and
accreditation package for the system combined the risks identified during the risk assessment and
security test and evaluation into one list. Carson Associates could not account for four of the
risks from the mitigation plan in the current instance of ITSSTS. According to the agency, these
four risks were tracked and completed in 2002. At the exit conference held to discuss the
findings of the system evaluation, the agency provided documentation supporting their statement
that the risks were tracked and completed in 2002 (output from a previous instance of ITSSTS),
but only for three of the four risks that could not be accounted for in the current instance of
ITSSTS. The agency could not determine why the three risks were not in the current instance of
ITSSTS and could not determine why the fourth risk could not be found in any instance of
ITSSTS.

The risk assessment for another system identified eight risks. The security test and evaluation
report for the system also identified eight risks, however they were not the same eight risks
identified in the risk assessment. The two new risks identified during the security test and
evaluation are not being tracked in ITSSTS. Subsequent to the exit conference held to discuss


                                                16
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2004


the findings of the system evaluation, the agency provided a report from ITSSTS that included
the two missing risks.

The risk assessment for a third system identified nine risks. Subsequent documentation for the
system stated that three risks are acceptable, and provided a detailed discussion of corrective
actions necessary to mitigate the remaining risks. A project plan proposed a total of sixteen tasks
to address the remaining risks, with two tasks stated as recently completed. The project plan also
included a detailed discussion of the remaining tasks, and included a timeline for completing the
outstanding tasks. The ITSSTS is reporting three of the remaining risks (also referred to as
weaknesses) as “Completed,” when the project plan indicates that the tasks required to address
the three weaknesses have not been completed. The ITSSTS is also reporting three weaknesses
as “Scheduled.” However, ITSSTS is not tracking the individual tasks required to address the
weaknesses. In some instances, more than one task was suggested to close the weakness. By
including only the weakness in ITSSTS and not the individual tasks required to address the
weakness, the agency is not able to track completion of the individual tasks proposed in the
project plan.

Business Continuity Plan Testing

A memorandum summarizing testing of one system’s disaster recovery process resulted in five
action items, however none of them are being tracked in ITSSTS or in the agency’s POA&M
submitted to OMB.

The testing of another system’s business continuity plan identified four shortcomings, and
resulted in three recommendations. The agency is tracking the four shortcomings in ITSSTS, but
is tracking the three recommendations in the POA&M submitted to OMB. The three
recommendations do not completely correlate to the four shortcomings, so the agency is tracking
different things in their tracking systems. Tracking shortcomings (i.e., weaknesses) in one
system and recommendations in another could result in weaknesses not being addressed or
overlooked, or in recommendations not being corrected on time.

Other reports

The OIG issued two reports in FY 2004 that included recommendations specific to two NRC
systems. One report, “Review of NRC’s Personnel Security Program,” included three
recommendations specific to the Integrated Personnel Security System (IPSS). These
recommendations were:

   •   Issue specific data entry guidance to Division of Facilities and Security staff responsible
       for entering data into IPSS.
   •   Formalize the ongoing IPSS data cleanup effort by documenting this effort. This
       documentation should include a discussion of resources assigned to the effort and a
       timeline for completion.
   •   Establish and implement a procedure to validate data accuracy at least annually.




                                                17
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2004


None of these recommendations are being tracked in either of the agency’s tracking tools.
Subsequent to completion of fieldwork, the agency entered the three recommendations into
ITSSTS.

The second report, “Audit of the Licensing Support Network,” included two recommendations:

   •   Establish written agreements with each interconnected party detailing minimum security
       responsibilities for their interconnected system.
   •   Update the security plan to include information required by OMB Circular No. A-130.

Only the second recommendation, update the security plan, is being tracked in ITSSTS and the
agency’s POA&M submitted to OMB. Subsequent to completion of fieldwork, the agency
entered the two recommendations into ITSSTS, and OCIO notified the OIG that the corrective
actions have been completed. However, the recommendations have not been closed by the OIG.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   11. Refine the procedures for identifying weaknesses to be tracked in the Information
       Technology Systems Security Tracking System.

The Agency’s POA&M Needs Improvement

There were a few minor problems with the 4th Quarter FY 2003 and 1st Quarter FY 2004
quarterly updates and POA&M submitted to OMB. In both of these quarterly updates, the
metrics reported to OMB did not reflect the contents of the corresponding POA&M.
Representatives from OCIO could not account for the discrepancies in the metrics and the
contents of the POA&M, as the metrics were calculated and submitted by the previous Senior
Information Technology Security Officer. The discrepancies in the metrics were not serious
enough to report as a weakness in the FY 2004 FISMA Independent Evaluation.

Program level weaknesses corrected between submission of the 3rd Quarter FY 2003 POA&M
and the 4th Quarter FY 2003 POA&M were not included in the 4th Quarter FY 2003 POA&M.
The omission of weaknesses corrected between the two POA&M submissions made it difficult
for the review team to identify weaknesses corrected during the time between June 30, 2003, and
October 1, 2003. The difficulty was compounded by inconsistencies in the metrics submitted
with the 4th Quarter FY 2003 POA&M. The FY 2004 FISMA guidance states that weaknesses
that are no longer undergoing correction and have been completely mitigated for over a year
should no longer be reported in the agency POA&M. FISMA guidance also states that the
POA&M should include the date of completion in the Status column. The NRC POA&M does
not include completion dates in the Status column, making it difficult to identifying weaknesses
that have been completely mitigated for over a year.

There was also a very minor issue with the 2nd Quarter FY 2004 POA&M. Text in column 5
(Milestones with Completion Dates) was changed for every item in the POA&M. No milestone


                                               18
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2004


dates were changed, only the text describing the milestones. Additional text was added to some
milestones. While the milestone dates were not changed per OMB guidance, the change to the
text describing the milestones made it difficult to verify there were no changes to the milestones.
Because of the changes to the text, every milestone had to be carefully reviewed to make sure no
dates had been changed. In addition, the wording of the milestones from an action (e.g., Issue
revised guidance), to a statement (e.g., Revised guidance issued) almost implies that those
activities actually occurred on the dates listed with them.

RECOMMENDATIONS

      The Office of the Inspector General recommends that the Executive Director for Operations:

      12. Report corrected weaknesses on the POA&M for a year after their completion.

      13. Include a completion date in the Status column of the POA&M.

3.3       Assessment of the Certification and Accreditation Process

NRC 2004 OMB FISMA Report Section C.2

MD 12.5 assigns the CIO responsibility for reviewing and approving security certifications and
accreditations for NRC information systems, including risk analysis results, security plans, and
contingency plans. Regional Administrators and Office Directors are responsible for ensuring
the preparation and periodic updates of required system security documentation are completed in
order to facilitate the design, implementation, operation and maintenance, testing, and security
certification and accreditation of information systems for which their office is the system
sponsor.

Part 4 of the MD 12.5 Handbook describes the certification and accreditation process used at
NRC. According to MD 12.5, FISMA directs NIST to prescribe standards and guidelines that
provide minimum information security requirements and improve the security of Federal
information and information systems, and these standards and guidelines are mandatory. NIST
has developed several guidelines and standards, including those for conducting risk assessments,
developing security plans, and contingency plans. MD 12.5 states that NRC shall comply with
NIST guidance to include guidance related to the preparation of security documentation (such as
system security plans, risk assessments, and contingency plans), and other applicable NIST
guidance for information technology security processes, procedures, and testing. OMB guidance
states that reviews and evaluations of agency IT security programs and systems should consider
adherence to standards and consistency with NIST guidance.

NRC requires the certification and accreditation of all major applications and general support
systems, and the C&A package must include the following documentation:

      •   Risk Assessment Report
      •   System Security Plan
      •   Security Test and Evaluation Plan and Report



                                                 19
                                                                                            Independent Evaluation of
                                                                             NRC’s Implementation of FISMA for FY 2004


    •    Contingency Plan and Contingency Plan Test Report
    •    Information System Security Officer Appointment Letter
    •    Certification Report With Certification Signature
    •    Accreditation Signature

MD 12.5 also describes the certification and accreditation requirements for “listed” and “other”
systems on the NRC inventory.

Carson Associates reviewed the certification and accreditation packages for four systems as part
of the system evaluations conducted for the FY 2004 FISMA review. Carson Associates found
that all systems followed the NRC certification and accreditation process, and the certification
and accreditation packages contained all of the required documentation. However, in some cases
the documentation was not consistent with NIST guidelines. Carson Associates also found that
in some cases, security protection requirements were inconsistent within security documentation.
Security test and evaluation conducted on one system as part of the certification and
accreditation of the system was not comprehensive and was not performed by an independent
party.

Separate system evaluation reports were prepared and delivered to the agency and include
recommendations specific to each system. The following findings are for the certification and
accreditation process itself and are not specific to any one system.

Security Documentation Is Not Always Consistent With NIST Guidelines

Risk Assessments

One risk assessment did not describe the threat-sources5 and vulnerabilities6 identified for the
system, and did not describe how risk levels were determined. NIST SP 800-30, Risk
Management Guide, describes risk as “a function of the likelihood of a given threat-source’s
exercising a particular potential vulnerability, and the resulting impact of that adverse event on
the organization.” The risk assessment presented a table summarizing the findings and
recommendations, where the second column of the table represented threats. However, the risk
assessment did not include a list of potential threat-sources that could exploit system
vulnerabilities, did not include a list of potential vulnerabilities applicable to the system, and did
not discuss the threat-source/vulnerability pairs that identified the threats listed in the summary
table.

NIST SP 800-30 describes risk level as a function of the likelihood of a given threat-source’s
attempting to exercise a given vulnerability (i.e., the likelihood of the threat), the magnitude of
the impact should a threat-source successfully exercise the vulnerability (i.e., the impact of the

5
  A threat-source is either (1) intent and method targeted at the intentional exploitation of a vulnerability or (2) a
situation and method that may accidentally trigger a vulnerability.
6
  The potential for a particular threat-source exercise (accidentally trigger or intentionally exploit) a particular
vulnerability is also known as a threat. A vulnerability is a flaw or weakness in system security procedures, design,
implementation, or internal controls that could be exercised (accidentally triggered or intentionally exploited) and
result in a security breach or a violation of the system’s security policy.


                                                          20
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2004


threat), and the adequacy of planned or existing security controls for reducing or eliminating risk.
To measure risk, a risk scale and risk-level matrix must be developed. The table in the risk
assessment discussed in the previous paragraph only presented the risk levels, and did not
identify or describe how these risk levels were determined. The risk assessment identified
several threats with a “Medium” risk level, but did not describe whether these were threats with
high impact or a high likelihood. The controls recommended to mitigate the risk could vary
greatly depending on which factor (likelihood or impact) contributed the most to the risk level.
Understanding likelihood and impact is also important in prioritizing the implementation of
recommended corrective actions.

The risk assessment for another system also had several problems. There were errors in the risk
levels in some of the tables of the report. In some cases, a risk level was incorrectly calculated,
and in others, the risk level changed from table to table. The final table in the report was missing
an entry that was included in all of the previous tables. The risk assessment only recommended
security controls that could mitigate or eliminate the identified high and medium level risks, but
gave no rationale for excluding recommendations for addressing the low level risks. The risk
assessment should provide recommendations for all risks, or a rationale for providing only
recommended controls for high and medium level risks.

The recommended controls in the risk assessment were very high level and did not include
specific corrective actions to address the identified vulnerabilities. NIST SP 800-30
recommends using vulnerability sources, system security testing, and a security requirements
checklist for identifying system vulnerabilities. The methodology needed to identify
vulnerabilities varies, depending on the system’s phase in the life cycle. The system was in the
implementation phase when the risk assessment was conducted. NIST SP 800-30 states that
identification of vulnerabilities for systems in this phase should include more specific
information, such as the planned security features described in the security design documentation
and the results of system certification test and evaluation. Questionnaires and interviews with
personnel responsible for the system were used to identify technical and non-technical
vulnerabilities, resulting in identification of generic technical and non-technical risk controls.
The risk assessment stated that more implementation specific recommendations would be offered
as part of the security plan. However, the security plan contains no recommendations related to
the identified risks.

Security Plans

NIST SP 800-18, Guide for Developing Security Plans for Information Technology Systems,
states that the purpose of a security plan is to provide an overview of the security requirements of
the system and describe controls in place or planned for meeting those requirements. NIST SP
800-18 also states that the security plan should fully identify and describe the controls currently
in place, or planned for the system.

In order to identify what controls were currently in place for the systems, Carson Associates
reviewed and analyzed two other documents in conjunction with the security plans – the self-
assessments, and results from security test and evaluation of system controls conducted during
the certification and accreditation of the systems. Carson Associates reviewed the FY 2003 self-



                                                 21
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2004


assessments in order to identify controls in place for the systems. Any controls marked at least at
a Level 3 in the self-assessment are considered to be in place based on the definitions in Section
3.1.5, Security Control Test and Evaluation. The FY 2003 self-assessments were reviewed as
the agency had only provided drafts of the FY 2004 self-assessments when the fieldwork was
conducted.

Carson Associates also reviewed the results of the security test and evaluation of system controls
conducted during the certification and accreditation of the systems. Security certification is a
comprehensive assessment of the management, operational, and technical security controls in an
information system, made in support of security accreditation, to determine the extent to which
the controls are implemented correctly, operating as intended, and producing the desired
outcome with respect to meeting the security requirements for the system. Three of the Security
Test and Evaluation Plans and Reports included an appendix with test procedure worksheets
used to record the results of the testing. The test objectives on the test procedure worksheets
correspond to the control objectives in the NIST SP 800-26 self-assessment. Each test objective
is marked as either pass, fail, or not applicable. A test objective marked as pass represents a
security control that is in place. The format of the Security Test and Evaluation Plan and Report
for the fourth system was different from the other three, so only the self-assessment was used to
identify security controls in place for that system.

Carson Associates found several areas in the system security plans for all four systems where
controls were not described. Carson Associates identified several cases where either the self-
assessment and/or the test procedure worksheet indicated a control was in place, but it was not
described in the security plan. Carson Associates also identified several instances where the
information in the security plan, self-assessment and/or test procedure worksheets was
inconsistent. Security plans should describe all controls currently in place. In-place controls are
those marked at least at Level 3 in the self-assessment, and that passed during security test and
evaluation. The self-assessment should also reflect all controls in place. In-place controls are
those that passed during security test and evaluation.

Contingency Plans

Carson Associates used NIST SP 800-34, Contingency Planning Guide for Information
Technology Systems, to evaluate the contingency plans (referred to as business continuity plans)
of the four NRC systems. Carson Associates found that the business continuity plans (BCPs)
were consistent with NIST SP 800-34 guidance for the most part, but there were several areas
where information was missing, or out of date. The following are some examples:

   •   Some of the BCPs did not include information on what changes have been made to the
       plan and when. According to the agency, NRC requires annual updates of all BCPs,
       however NRC only requires conformance with current NIST guidance at the time of re-
       accreditation. However, without information on what changes were made and when,
       Carson Associates could not determine whether the BCPs that were reviewed were
       updated as part of the annual requirement, or as part of a system re-accreditation. NIST
       SP 800-34 states that the contingency plan should be a living document that is changed as
       required to reflect system, operational, or organizational changes. Modifications made to



                                                 22
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2004


         the plan should be recorded in a record of changes, which lists the page number, change
         comment, and date of change.
    •    The personnel contact information in some of the BCPs was not up-to-date and did not
         include notification procedures or contact information for notifying personnel during
         non-business hours. In some cases, the BCPs did not include personnel contact
         information for team leaders, alternate team leaders, or team members. Not having up-to-
         date contact information to reach the designated teams during both business and non-
         business hours may cause delays in the disaster recovery process.
    •    Some BCPs did not include procedures for restoring system operations that include
         procedures for cleaning the alternate site of any equipment or other materials belonging
         to the organization, with a focus on handling sensitive information. These procedures are
         necessary to ensure that no sensitive materials remain at the alternate site.

RECOMMENDATION

    The Office of the Inspector General recommends that the Executive Director for Operations:

    14. Develop a process for ensuring security documentation supporting system certification
        and accreditation is consistent with NIST guidelines.

Security Protection Requirements Are Inconsistent Within Security Documentation

FISMA defines the term “information security” to mean protecting information and information
systems from unauthorized access, use, disclosure, disruption, modification, or destruction in
order to provide confidentiality, integrity, and availability. Confidentiality is preserving
authorized restrictions on information access and disclosure, including means for protecting
personal privacy and proprietary information. Integrity is guarding against improper information
modification or destruction, and includes ensuring information non-repudiation and authenticity.
Availability is ensuring timely and reliable access to and use of information. Confidentiality,
integrity and availability are often referred to as security protection requirements or security
objectives for a system.

Federal Information Processing Standards Publication 199, Standards for Security
Categorization of Federal Information and Information Systems, requires all Federal agencies to
categorize their systems by assigning potential impact levels to the three security objectives. The
potential impact is low if the loss of confidentiality, integrity, or availability could be expected to
have a limited adverse effect on organizational operations, organizational assets, or individuals.7
The potential impact is moderate (medium) if the loss of confidentiality, integrity, or availability
could be expected to have a serious adverse effect on organizational operations, organizational
assets, or individuals. The potential impact is high if the loss of confidentiality, integrity, or
availability could be expected to have a severe or catastrophic adverse effect on organizational
operations, organizational assets, or individuals.


7
 Adverse effects on individuals may include, but are not limited to, loss of the privacy to which individuals are
entitled under law.


                                                          23
                                                                                  Independent Evaluation of
                                                                   NRC’s Implementation of FISMA for FY 2004


Three of the four systems had different security protection requirements in their security plans
and the self-assessments. The protection requirements should be consistent across the security
documentation for a system. A change in protection requirements could indicate a need to re-
evaluate the risks to the system, especially if the change is from a lower rating to a higher one. If
the protection requirements have changed since the system’s security plan was finalized, then an
explanation for the change should be noted on the self-assessment.

RECOMMENDATION

    The Office of the Inspector General recommends that the Executive Director for Operations:

    15. Develop a process for ensuring security protection requirements (confidentiality,
        integrity, availability) are consistently defined in security plans and self-assessments.

Security Test and Evaluation for One System Was Not Comprehensive and Not
Independent

NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal Information
Systems, states that “Security certification is a comprehensive assessment of the management,
operational, and technical security controls in an information system, made in support of security
accreditation, to determine the extent to which the controls are implemented correctly, operating
as intended, and producing the desired outcome with respect to meeting the security
requirements for the system.” The security test and evaluation plans and reports for three of the
four systems demonstrated that comprehensive testing was performed on the security controls of
those systems. However, the security test and evaluation conducted on the fourth system was not
comprehensive and was not performed by an independent party.

The test scenarios used in the system’s security test and evaluation plan only tested user
authentication, user logon, password management, user logoff, user profiles and user groups.
While this type of testing may be appropriate as a part of the life cycle testing performed during
the implementation phase, it is not appropriate for security test and evaluation associated with
certification of a system.

NIST SP 800-30 recommends using vulnerability sources, system security testing, and
developing a security requirements checklist for identifying system vulnerabilities. The
methodology needed to identify vulnerabilities varies, depending on the system’s phase in the
life cycle. The system was in the implementation phase when the risk assessment was
conducted. NIST SP 800-30 states that identification of vulnerabilities for systems in this phase
should include more specific information, such as the planned security features described in the
security design documentation and the results of system certification test and evaluation.
Questionnaires and interviews with personnel responsible for the system were used to identify
technical and non-technical vulnerabilities, resulting in identification of generic technical and
non-technical risk controls. However, the risk assessment did not identify any actual
threats/vulnerabilities to the system, therefore, it is essential that the security test and evaluation
include a comprehensive assessment of management, operational, and technical controls. For
example, the risk assessment identified the environment in which the system is installed as a
potential vulnerability. The security test and evaluation did not test any physical controls.


                                                   24
                                                                                 Independent Evaluation of
                                                                  NRC’s Implementation of FISMA for FY 2004




The security test and evaluation plan described the process the tester should follow when failures
or problems are found – after the problem is resolved, the correction is tested again. If the failure
or problem is found during integration or system testing, then regression testing is also supposed
to be performed. However, there are several tests that appear to have been recorded first as a
fail, then changed to a pass. None of the pages where failures appear to be noted have an
indication of what caused the test to fail, what corrections (if any) were made to the system to
correct the error, and when the test was repeated after the correction was made.

The contractor who developed the system performed the security test and evaluation. This is
contrary to guidance in NIST SP 800-37. To preserve the impartial and unbiased nature of the
security certification, the certification agent should be in a position that is independent from the
persons directly responsible for the development of the information system and the day-to-day
operation of the system. The certification agent should also be independent of those individuals
responsible for correcting security deficiencies identified during the security certification. The
independence of the certification agent is an important factor in assessing the credibility of the
security assessment results and ensuring the authorizing official receives the most objective
information possible in order to make an informed, risk-based, accreditation decision. When the
potential agency-level impact is moderate or high, certification agent independence is needed
and justified.

RECOMMENDATION

      The Office of the Inspector General recommends that the Executive Director for Operations:

      16. Develop a process for ensuring security test and evaluation in support of certification and
          accreditation is comprehensive and independent.

3.4       Security Configurations and Patching

NRC 2004 OMB FISMA Report Section D

The CIO has implemented several policies that address security configurations and their
implementation. The CIO developed a NRC System Security Baseline Implementation Plan,
with an objective to establish, develop, implement, maintain, and verify secure baseline
configurations for all information systems. The NRC program is based on Center for Internet
Security Benchmarks and Scoring Tools. NRC personnel compiled and researched
recommended “best practice” technical settings and actions and developed “in house”
benchmarks for those platforms for which a benchmark has yet to be developed. The following
platforms are the focus of the initiative:

      •   Microsoft NT
      •   Microsoft Windows 2000
      •   Novell NetWare
      •   Sun Solaris
      •   IBM AIX


                                                   25
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2004


   •   Linux

Follow-up initiatives will address upcoming operating systems (e.g., Windows XP), and lesser-
utilized operating systems, specific applications (e.g., web servers), networking infrastructure
devices (e.g., routers), and other miscellaneous systems and devices (e.g., wireless). The scope
of the plan is all NRC systems running operating systems listed above and includes all systems
that are currently in an “active” state and are components of the primary NRC LAN/WAN.

The plan describes the methodology as comprising four steps:

   •   Benchmark definition – NRC is using Center for Internet Security terminology for
       benchmarks – Level-I and Level-II, with Level-II being more secure. The goal for the
       initiative is to have NRC systems satisfy Level-I benchmark criteria.
   •   Identification of security benchmarks – NRC has identified six initial benchmarks as
       described earlier.
   •   Security benchmark implementation – Only systems running one of the six operating
       systems described earlier are covered by the initiative. The plan also discusses plans for
       ensuring a Benchmark compliant desktop image.
   •   Scoring tools and system reviews – The scoring tools must be installed on each system
       that it will be run against. Automated tools have not yet been selected/developed for
       IBM AIX or Novell NetWare, so manual system reviews will be required. The minimum
       scoring tool score for any NRC system should be a seven. After NRC system
       administrators have implemented the security benchmarks, a sample of representative
       systems will be selected to verify that baseline configurations are not only completed, but
       also completed satisfactorily.

The plan states that, while the goal is to score at least a seven, ideally, every NRC system should
score a ten unless a valid operational reason or justification can be provided. The plan also states
that different systems have different operational requirements, and the decision may be made to
leave certain services running or not to configure certain security parameters. This is acceptable,
as long as informed decisions are being made to deviate from the established benchmark.
Appendix A of the plan contains a list of NRC servers requiring security baseline
implementation.

Carson Associates reviewed a Security Benchmark Compliance Tracking report that tracks NRC
system administrator progress towards implementing secure operating system benchmarks on
NRC servers, and determining system compliance with benchmarks through the reporting of
benchmark scoring tool results. The document includes a compliance tracking table that lists the
scores for servers that have had benchmarks applied to them. The document discusses concerns
administrators had with trying to score at least a seven on their benchmark implementation. The
document states that a score of seven was arbitrarily selected so that administrators would strive
to make systems as secure as possible. If it is determined that the best score obtainable for a
system in its given environment is a five, then that is acceptable, as long as explanation as to why
a five is the best score is provided. The review team compared the table in the document to
Appendix A of the NRC System Security Baseline Implementation Plan, and found that the



                                                 26
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2004


majority of the servers initially identified as requiring security baseline implementation have had
it completed.

In addition to the six benchmarks NRC is currently using, NRC is also using industry guidelines
for establishing baselines for Microsoft Internet Information Server and Microsoft SQL Server.
National Security Agency guidelines are being used to “harden” new boxes running either of
these services. The next “platform” NRC plans to focus on is the Citrix servers. The Citrix
vendor came in as part of a pilot project and deployed new Citrix servers. The vendor provided
documents on Citrix best practices for securing Citrix servers. The servers also went through the
Consolidated Test Facility standard auditing process.

For desktops, NRC has developed a standard image for Windows XP, based on NIST best
practices. The majority of desktops at NRC are Windows NT and are being upgraded to
Windows XP. NRC uses workstation upgrades that are “pushed” at login to keep Windows NT
desktop configurations consistent across NRC. LANDesk can also be used to push upgrades to
the desktops. Network bulletins are used to announce agency workstation updates. The bulletins
describe the nature of the upgrade, and that it will occur using an automated procedure that will
occur during network login. The bulletin includes, as an attachment, the schedule of when the
upgrade will take place for each office in NRC.

NRC currently has only one Windows 2003 server. The Windows 2000 best practices were used
to “harden” this server, as there are not any established baselines for Windows 2003 available.
For the Cisco routers, NRC used the Router Audit Tool. The “hardening” was done only once,
when the LAN/WAN was certified and accredited. NRC policy for routers is that once the
configuration is set, as long as it stays the same, they do not need to be audited on a periodic
basis.

NRC developed system security screening guidelines for preparing new systems for
implementation into the NRC production operating environment. The security screening ensures
that the system configuration meets NRC LAN/WAN security requirements. The guidelines
outline the steps necessary to request and perform the security screening process, guidance on
managing and developing a secure system, and industry best practices and additional resources.
The review team evaluated Security Screening Forms, results from scoring tools, results from the
Microsoft Baseline Security Analyzer, and results from system scans for a few servers and found
that the system security screening guidelines are being followed.

The benchmarks used at NRC include checks for the latest patches. The Microsoft Security
Baseline Analyzer, which is also used when “hardening” Windows servers, also checks for the
latest patches. The process for implementing changes to servers described above also addresses
patching of security vulnerabilities.

3.5    Incident Detection and Handling Procedures, and Incident Reporting and
       Analysis

NRC 2004 OMB FISMA Report Section E and F




                                                 27
                                                                                       Independent Evaluation of
                                                                        NRC’s Implementation of FISMA for FY 2004


NRC’s Information Systems Security Incident Response Procedures define the procedures for
reporting incidents internally, for external reporting to law enforcement, and for reporting to the
United States Computer Emergency Readiness Team (US-CERT)8. The procedures define the
roles and responsibilities of the Computer Security Incident Response Capability – a team of
highly skilled and knowledgeable NRC staff responsible for responding to computer security
incidents.

The procedures for reporting and responding to information systems security incidents include
procedures for:

    •   NRC employees and system users
    •   The general public
    •   Help Desk personnel
    •   NRC OCIO Network Operations Center
    •   LAN/WAN Information System Security Officer and Computer Security Incident
        Response Capability Team
    •   Director, OCIO, Infrastructure Computing Operations Division

The procedures define reporting requirements for security incidents on a daily, weekly, and
monthly basis. The NRC LAN/WAN Information System Security Officer (ISSO) develops a
monthly report to send US-CERT on incidents at NRC. The procedures include contact
information for notifying US-CERT about security incidents.

The NRC uses severity levels to categorize information security incidents. These labels convey
information about the nature and impact of incidents in summary reports and verbal
communications. The severity levels do not equate one-for-one with US-CERT priority levels,
however the NRC reporting process provides a means to ensure that all required incident
information is conveyed to US-CERT in a timely manner. NRC has not had any successful
security incidents in FY 2004, other than an occasional virus infection.

NRC uses a variety of tools, techniques, and technologies to mitigate IT security risk. NRC uses
network vulnerability assessment tools to perform scans of critical systems on a periodic basis.
NRC has performed external penetration testing of their network and systems, and internal
penetration testing is schedule to begin soon. NRC also performs periodic testing for wireless
access points (NRC currently does not permit wireless access points, except during pilot tests).
Virus detection software is installed on all mail servers and desktops. A critical server
supporting the Electronic Information Exchange requires client certificates for access.

NRC uses a cache flow web proxy device to block active content and block access to specific
web sites that NRC has identified as inappropriate. All outgoing telnet and file transfer protocol
must go through the NRC proxy as well. There is an intrusion detection system at the perimeter
and software that can detect unauthorized changes to files has been installed on the NRC web


8
  The procedures actually reference reporting to the Federal Computer Incident Response Center, which was
replaced with the US-CERT when the Department of Homeland Security was established.


                                                       28
                                                                                Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2004


server. OCIO staff members review firewall and intrusion detection logs on a daily basis. Logs
from the NRC’s web server are also reviewed daily.

NRC is currently piloting a new vulnerability management system that identifies network
vulnerabilities and provides extensive flexibility to allow NRC to tailor the vulnerability
management process to meet their business requirements in addition to their network security
needs.

3.6    Security Awareness and Training

NRC 2004 OMB FISMA Report Section G

All new NRC employees receive computer security orientation when they begin employment at
the agency. This orientation program consists of an oral presentation and a video. A member of
the computer security staff also talks to the new personnel. Annual computer security training
has been mandated for all employees since 1987 and is provided via an on-line ten-part security
awareness course. OCIO maintains a database of personnel who have taken the security
awareness course and cross checks the list on a regular basis with an employee list provided by
NRC Human Resources. A member of the computer security staff sends a message to offices
around the first of the month reminding them to have their employees take the course.

NRC’s online computer security training courses were updated in FY 2004 to reflect the latest
guidance from FISMA. A network announcement was distributed and all employees and
contractors with IT system access have begun taking the updated course. FISMA requires that
the computer security awareness course be completed annually. NRC also conducted its annual
“Computer Security Awareness Day” on November 20th, 2003. Over 200 employees and
contractors attended the guest speaker’s presentation, and approximately 650 individuals visited
booths in the Exhibit Hall.

Positions with significant security responsibilities are defined with qualifications criteria, and the
responsibilities are documented in position descriptions. OCIO maintains a list of all personnel
with specialized security responsibilities, such as the ISSOs formally appointed for each of the
applications and systems. ISSOs must sign an acknowledgement of their responsibilities when
taking the position. All ISSOs are required to take an on-line ISSO training course in addition to
the on-line security awareness course.

In addition to the on-line courses, the agency uses Yellow Announcements to remind employees
of NRC information technology security policies. Recent Yellow Announcements include topics
such as the use of the Internet at NRC, misuse of agency computers, the Privacy Act at NRC, and
interim guidance for Official Use Only Information. The agency also uses network bulletins sent
via e-mail to alert employees of potential security concerns. For example, employees were
recently warned about suspicious e-mails requesting CitiBank account information. Security
awareness articles are frequently published in NRC’s newsletter and OCIO holds occasional
seminars on security topics, such as the spam seminar held in July 2004.

Agency staff and contractors are advised of the dangers of peer-to-peer applications during their
annual web based security training. The on-line security awareness course includes a discussion


                                                  29
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2004


of the dangers of peer-to-peer applications such as instant messaging and there are plans to
address the subject in more detail in the next version of the on-line security awareness course.
Agency policy does not explicitly prohibit peer-to-peer applications, however the agency’s
firewall policy does indicate that there should be no non-proxied connection from the agency
without explicit approval. Currently certain firewall filters have been put in place to block
specific peer-to-peer applications. While some peer-to-peer applications may be able to traverse
the firewall, new filters are created to combat these connections as the connections are
discovered. The new firewall, planned for implementation in September 2004 will allow peer-
to-peer applications to be blocked more easily. One type of instant messaging is permitted in
one of NRC’s regions to provide Section 508 support for an employee.

NRC is currently developing a security awareness and training plan in accordance with Office of
Personnel Management final regulations concerning information technology security awareness
(5 CFR Part 930, Subpart C, effective June 14, 2004).




                                               30
                                                                                Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2004


4      Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Remove sensitive data from Management Directive 12.5, NRC Automated Information
       Security Program, which should not be disclosed to the public.
    2. Update the Security Services Agreement between the Department of the Interior National
       Business Center and NRC to include a requirement to exchange relevant system security
       plans.
    3. Develop a Service Level Agreement and Interconnect Security Agreement between the
       Department of the Interior National Business Center and NRC as described in the DOI
       Evaluation Report, “Review of Information System Security over Systems and
       Applications Used by the National Business Center to Provide Services to Non-
       Department of the Interior Clients.”
    4. Update the Service Level Agreement between NRC and the National Institutes of Health.
    5. Re-certify and re-accredit the NRC Data Center/Telecommunications System.
    6. Re-certify and re-accredit the NRC Local Area Network/Wide Area Network.
    7. Re-certify and re-accredit the Emergency Response Data System.
    8. Re-certify and re-accredit the Emergency Telecommunications System.
    9. Update the NRC Local Area Network/Wide Area Network Risk Assessment.
    10. Update the NRC Local Area Network/Wide Area Network Business Continuity Plan.
    11. Refine the procedures for identifying weaknesses to be tracked in the Information
        Technology Systems Security Tracking System.
    12. Report corrected weaknesses on the POA&M for a year after their completion.
    13. Include a completion date in the Status column of the POA&M.
    14. Develop a process for ensuring security documentation supporting system certification
        and accreditation is consistent with NIST guidelines.
    15. Develop a process for ensuring security protection requirements (confidentiality,
        integrity, availability) are consistently defined in security plans and self-assessments.
    16. Develop a process for ensuring security test and evaluation in support of certification and
        accreditation is comprehensive and independent.




                                                  31
                                                                        Independent Evaluation of
                                                         NRC’s Implementation of FISMA for FY 2004


5     OIG Response to Agency Comments

On September 22, 2004, the Executive Director for Operations provided comments concerning
the draft Independent Evaluation Report and NRC 2004 OMB FISMA Report. We modified the
reports as we determined appropriate in response to these comments.




                                            32
                                                                    Appendix A – Scope and Methodology
                                                                               Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2004

SCOPE AND METHODOLOGY


The scope of this independent evaluation of the U.S. Nuclear Regulatory Commission (NRC)
information security program included:

   •   NRC major applications and general support systems
   •   NRC local area network/wide area network equipment
   •   Information technology equipment supporting NRC systems

The independent evaluation did not include controls related to the management of safeguards or
classified information.

To accomplish the independent evaluation objectives, the independent evaluation team
conducted interviews with Office of the Chief Information Officer staff members, and NRC
system owners. The team reviewed documentation provided by NRC including risk
assessments; security plans; contingency plans; security test and evaluation plans and reports;
certification and accreditation reports; and other security reviews conducted by or on behalf of
NRC.

All analyses were performed in accordance with guidance from the following:

   •   National Institute of Standards and Technology standards and guidelines
   •   U.S. Nuclear Regulatory Commission Management Directive 12.5, NRC Automated
       Information Systems Security Program
   •   NRC Office of the Inspector General Audit Guidance

This work was conducted between June 2004 and September 2004. The work was conducted by
Jane Laroussi, Virgil Isola, Anthony Van Dyck, and Diane Reilly from Richard S. Carson &
Associates, Inc.




                                                33
                                  Appendix A – Scope and Methodology
                                             Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2004




[Page intentionally left blank]




              34
                                                            Appendix B – NRC 2004 OMB FISMA Report
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2004

NRC 2004 OMB FISMA REPORT


Office of Management and Budget Memorandum M-04-25, FY 2004 Reporting Instructions for
the Federal Information Security Management Act, instructs each agency and agency Inspector
General to provide responses for each of the performance measures in a Microsoft Excel
spreadsheet reporting template that was provided as Section E of the Memorandum. This
appendix presents the performance measures prepared by the Richard S. Carson Associates, Inc.,
on the behalf of the U.S. Nuclear Regulatory Commission Office of the Inspector General.




                                              35
                             Appendix B – NRC 2004 OMB FISMA Report
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2004




[Page intentionally left blank]




              36
                             2004 FISMA Report
Agency:                             Nuclear Regulatory Commission


Date Submitted:        09/24/2004

Submitted By:          OIG

Contact Information:
           Name:       Vicki Foster
           E-mail:     vxf@nrc.gov
           Phone:      (301) 415-5909


                       To enter data in allowed fields, use password: fisma
                                                                                           NRC Report to OMB


Section A: System Inventory and IT Security Performance
NOTE: ALL of Section A should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma


   A.1. By bureau (or major agency operating component), identify the total number of programs and systems in the agency and the total number of contractor operations or facilities. The agency CIOs
   and IG's shall each identify the total number that they reviewed as part of this evaluation in FY04. NIST 800-26, is to be used as guidance for these reviews.



   A.2. For each part of this question, identify actual performance in FY04 for the total number of systems by bureau (or major agency operating component) in the format provided below.


                                                               A.1                                                                                  A.2
                                        A.1.a.               A.1.b.               A.1.c.               A.2.a.                A.2.b.               A.2.c.                A.2.d.                A.2.e.

                                   FY04 Programs        FY04 Systems        FY04 Contractor         Number of             Number of             Number of      Number of systems     Number of
                                                                             Operations or       systems certified      systems with        systems for which with a contingency systems for which
                                                                               Facilities         and accredited       security control      security controls        plan          contingency
                                                                                                                       costs integrated      have been tested                     plans have been
                                                                                                                      into the life cycle    and evaluated in                          tested
                                                                                                                        of the system          the last year



                                   Total   Number   Total    Number   Total   Number   Total   Percent of  Total  Percent of  Total   Percent of  Total   Percent of  Total  Percent of
          Bureau Name             Number Reviewed Number Reviewed Number Reviewed Number         Total    Number    Total    Number     Total    Number     Total    Number    Total
   NRC                                   1        1       17        4       7        3      17    100.0%       17    100.0%        16     94.1%        16     94.1%       16     94.1%
Agency Total                             1        1       17        4       7        3      17    100.0%       17    100.0%        16     94.1%        16     94.1%       16     94.1%

Comments:

Thirteen of the systems are major applications, and four are general support systems. NRC also has two major applications in development, for a total of 19 systems. Three of the systems are operating
under an interim accreditation. The OIG reviewed 4 major applications in detail. Of the 7 contractor operations or facilities, OIG reviewed 2 in conjunction with the system reviews, and reviewed a recent
network security testing report for another.




                                                                                                  2 of 10
                                                                                            NRC Report to OMB

                                                                                                    A.3


   A.3. Evaluate the degree to which the following statements reflect the status in your agency, by choosing from the responses provided in the drop down menu. If appropriate or necessary, include
   comments in the Comment area provided below.


                                                               Statement                                                                                            Evaluation


        a. Agency program officials and the agency CIO have used appropriate methods to ensure that contractor provided services or
        services provided by another agency for their program and systems are adequately secure and meet the requirements of                          Almost Always, or 96-100% of the time
        FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.


        b. The reviews of programs, systems, and contractor operations or facilities, identified above, were conducted using the NIST
                                                                                                                                                          Frequently, or 71-80% of the time
        self-assessment guide, 800-26.


        c. In instances where the NIST self-assessment guide was not used to conduct reviews, the alternative methodology used
                                                                                                                                                      Almost Always, or 96-100% of the time
        addressed all elements of the NIST guide.


        d. The agency maintains an inventory of major IT systems and this inventory is updated at least annually.                                     Almost Always, or 96-100% of the time


        e. The OIG was included in the development and verification of the agency’s IT system inventory.                                              Almost Always, or 96-100% of the time


        f. The OIG and the CIO agree on the total number of programs, systems, and contractor operations or facilities.                               Almost Always, or 96-100% of the time


        g. The agency CIO reviews and concurs with the major IT investment decisions of bureaus (or major operating components)
                                                                                                                                                      Almost Always, or 96-100% of the time
        within the agency.

                                                               Statement                                                                                             Yes or No


        h. The agency has begun to assess systems for e-authentication risk.                                                                                            Yes


        i. The agency has appointed a senior agency information security officer that reports directly to the CIO.                                                      Yes


Comments:
b. NRC uses NIST SP 800-26 for reviewing their own programs and systems, however NRC primarily uses methods other than NIST SP 800-26 for reviewing contractor operations and facilities. NRC
presumes that that two agencies supporting NRC are also following FISMA and NIST guidelines, and there are agreements in place with the 2 Federal agencies. For contractors and commercial
entities providing services, NRC includes security requirements in contract language.

e. The OIG does not participate in the development of the agency's major IT system inventory, but does verify the inventory is accurate and up to date.

i. NRC's SITSO left the agency in late 2003 in late 2003, and as of December 12, 2003, the Director of the Program Management, Policy Development, and Analysis Staff within the Office of the Chief
Information Officer is currently serving as acting SITSO. The agency is in the process of looking for someone to fill the position and anticipates hiring a new SITSO in the next 60 days. The former
SITSO did not report directly to the CIO, and the new SITSO, once hired, will also not report directly to the CIO. The SITSO will report to the Director of the Program Management, Policy Development,
and Analysis Staff within the Office of the Chief Information Officer on day-to-day matters, and will have direct access to the CIO on any computer security issues.




                                                                                                  3 of 10
                                                                              NRC Report to OMB


Section B: Identification of Significant Deficiencies
NOTE: ALL of Section B should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma


   B.1. By bureau, identify all FY 04 significant deficiencies in policies, procedures, or practices required to be reported under existing law. Describe each on a separate row,
   and identify which are repeated from FY03. In addition, for each significant deficiency, indicate whether a POA&M has been developed. Insert rows as needed.


                                                                                      B.1.
                                                                                               FY04 Significant Deficiencies
                                                            Total Number                                                                                             POA&M
                                               Total          Repeated                                                                                             developed?
               Bureau Name                    Number         from FY03                   Identify and Describe Each Significant Deficiency                          Yes or No
NRC                                                     0               0
Agency Total                                            0              0

Comments:




                                                                                     4 of 10
                                                                          NRC Report to OMB


Section C: OIG Assessment of the POA&M Process
NOTE: Section C should *ONLY* be completed by the OIG. The CIO should leave this section blank.
To enter data in allowed fields, use password: fisma

   C.1. Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency-wide plan of
   action and milestone (POA&M) process. This question is for IGs only. Evaluate the degree to which the following statements reflect the status in your agency by
   choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the Comment area provided below.

                                                                                   C.1
                                                 Statement                                                                          Evaluation

        a. Known IT security weaknesses, from all components, are incorporated into the POA&M.                   Almost Always, or 96-100% of the time

        b. Program officials develop, implement, and manage POA&Ms for systems they own and
                                                                                                                 Almost Always, or 96-100% of the time
        operate (systems that support their program or programs) that have an IT security weakness.

        c. Program officials report to the CIO on a regular basis (at least quarterly) on their remediation
                                                                                                                 Almost Always, or 96-100% of the time
        progress.

        d. CIO develops, implements, and manages POA&Ms for every system they own and operate (a
                                                                                                                 Almost Always, or 96-100% of the time
        system that supports their program or programs) that has an IT security weakness.

        e. CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.          Almost Always, or 96-100% of the time

        f. The POA&M is the authoritative agency and IG management tool to identify and monitor agency
                                                                                                                 Almost Always, or 96-100% of the time
        actions for correcting information and IT security weaknesses.
        g. System-level POA&Ms are tied directly to the system budget request through the IT business
                                                                                                                 Almost Always, or 96-100% of the time
        case as required in OMB budget guidance (Circular A-11).

        h. OIG has access to POA&Ms as requested.                                                                Almost Always, or 96-100% of the time

        i. OIG findings are incorporated into the POA&M process.                                                 Almost Always, or 96-100% of the time
        j. POA&M process prioritizes IT security weaknesses to help ensure that significant IT security
                                                                                                                 Almost Always, or 96-100% of the time
        weaknesses are addressed in a timely manner and receive appropriate resources.

Comments:
The CIO maintains an internal tracking system used as a POA&M tool for tracking security weaknesses of all NRC systems, not just those owned by CIO. Program
officials are still responsible for providing inputs to the tracking system, for correcting weaknesses, and for providing updates to CIO. CIO uses a separate POA&M to
track weaknesses reported to OMB on a quarterly basis.




                                                                                 5 of 10
                                                             NRC Report to OMB


C.1 OIG Assessment of the Certification and Accreditation Process
Section C should only be completed by the OIG. OMB is requesting IGs to assess the agency’s certification and accreditation process in
order to provide a qualitative assessment of this critical activity. This assessment should consider the quality of the Agency’s certification and
accreditation process. Any new certification and accreditation work initiated after completion of NIST Special Publication 800-37 should be
consistent with NIST Special Publication 800-37. This includes use of the FIPS 199, “Standards for Security Categorization of Federal
Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance for completing
risk assessments and security plans. Earlier NIST guidance is applicable to any certification and accreditation work completed or initiated
before finalization of NIST Special Publication 800-37. Agencies were not expected to use NIST Special Publication 800-37 as guidance
before it became final.

                                     Statement                                                                 Evaluation
     Assess the overall quality of the Agency's certification and accreditation
     process.

     Comments: The OIG reviewed the C&A packages for four systems as part of
     the system evaluations conducted for the FY 2004 FISMA review. All systems
     followed the NRC C&A process, which is based on NIST guidance. All of the
     C&A packages for the systems that were reviewed contained all of the required
     documentation (i.e., risk assessment, security plan, security test and evaluation
     plan and report, contingency plan, contingency plan test report, ISSO                 Good
     appointment memo, certification report with certification signature, and
     accreditation signature). However, in some cases the documentation was not
     consistent with NIST guidelines, and in some cases, security protection
     requirements (confidentiality, integrity, availability) were inconsistent within
     security documentation. Security test and evaluation conducted on one system
     as part of the C&A of the system was not comprehensive and was not
     performed by an independent party.




                                                                    6 of 10
                                                                     NRC Report to OMB


Section D
NOTE: ALL of Section D should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma


   D.1. First, answer D.1. If the answer is yes, then proceed. If no, then skip to Section E. For D.1.a-f, identify whether agencywide security configuration
   requirements address each listed application or operating system (Yes, No, or Not Applicable), and then evaluate the degree to which these configurations
   are implemented on applicable systems. For example: If your agency has a total of 200 systems, and 100 of those systems are running Windows 2000,
   the universe for evaluation of degree would be 100 systems. If 61 of those 100 systems follow configuration requirement policies, and the configuration
   controls are implemented, the answer would reflect "yes" and "51-70%". If appropriate or necessary, include comments in the Comment area provided
   below.
   D.2. Answer Yes or No, and then evaluate the degree to which the configuration requirements address the patching of security vulnerabilities. If
   appropriate or necessary, include comments in the Comment area provided below.
                                                                        D.1. & D.2.                                        D.1.              D.2.
                                                                                                                           Yes,
                                                                                                                          No, or
                                                                                                                           N/A           Evaluation
D.1. Has the CIO implemented agencywide policies that require detailed specific security configurations and what is the
degree by which the configurations are implemented?                                                                        Yes
                                                                                                                                    Almost Always, or 96-
                 a. Windows XP Professional
                                                                                                                           Yes      100% of the time
                                                                                                                                    Almost Always, or 96-
                 b. Windows NT
                                                                                                                           Yes      100% of the time
                 c. Windows 2000 Professional                                                                              N/A
                                                                                                                                    Almost Always, or 96-
                 d. Windows 2000
                                                                                                                           Yes      100% of the time
                                                                                                                                    Almost Always, or 96-
                 e. Windows 2000 Server
                                                                                                                           Yes      100% of the time
                                                                                                                                    Almost Always, or 96-
                 f. Windows 2003 Server
                                                                                                                           Yes      100% of the time
                                                                                                                                    Almost Always, or 96-
                 g. Solaris
                                                                                                                           Yes      100% of the time
                 h. HP-UX                                                                                                  No
                                                                                                                                    Almost Always, or 96-
                 i. Linux
                                                                                                                           Yes      100% of the time
                                                                                                                                    Almost Always, or 96-
                 j. Cisco Router IOS
                                                                                                                           Yes      100% of the time
                 k. Oracle                                                                                                 N/A
                                                                                                                                    Almost Always, or 96-
                 l. Other. Specify: Novell, AIX
                                                                                                                           Yes      100% of the time
                                                                                                                          Yes or
                                                                                                                           No
                                                                                                                                         Evaluation

        D.2. Do the configuration requirements implemented above in D.1.a-f., address patching of security                          Almost Always, or 96-
        vulnerabilities?                                                                                                   Yes      100% of the time

Comments:




                                                                            7 of 10
                                                                                  NRC Report to OMB


Section E: Incident Detection and Handling Procedures
NOTE: ALL of Section E should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma

   E.1. Evaluate the degree to which the following statements reflect the status at your agency. If appropriate or necessary, include comments in the Comment area provided
   below.

                                                                                           E.1

                                                            Statement                                                                                      Evaluation

                 a. The agency follows documented policies and procedures for reporting incidents internally.                               Almost Always, or 96-100% of the time

                 b. The agency follows documented policies and procedures for external reporting to law enforcement
                                                                                                                                            Almost Always, or 96-100% of the time
                 authorities.
                 c. The agency follows defined procedures for reporting to the United States Computer Emergency Readiness
                                                                                                                                            Almost Always, or 96-100% of the time
                 Team (US-CERT). http://www.us-cert.gov
                                                                                          E.2.
   E.2. Incident Detection Capabilities.
                                                                                                                                            Number of         Percentage of
                                                                                                                                             Systems          Total Systems
                           a. How many systems underwent vulnerability scans and penetration tests in FY04?                                              14         82%
                           b. Specifically, what tools, techniques, technologies, etc., does the agency use to mitigate IT security risk?
                                  Answer:
                                      Network vulnerability assessment tools, external penetration testing, internal penetration testing scheduled to begin soon. Testing for wireless
                                      access points. Virus detection software on all mail servers & desktops. Cache flow web proxy device to block active content & block access to
                                      specific web sites. Intrusion detection system at the perimeter. Firewall, intrusion detection, and web logs reviewed on a daily basis.




Comments:


NRC conducts vulnerability scans and penetration tests on portions of their network and not on specific individual NRC systems. Some servers supporting NRC systems were
scanned when their operating systems were upgraded (part of NRC's process for putting new servers into production). External penetration testing of NRC's network was conducted
in FY 2004. Two NRC systems, and portions of a third, are not housed at NRC, and were not included in any scanning or penetration testing conducted by NRC.




                                                                                         8 of 10
                                                                         NRC Report to OMB

Section F: Incident Reporting and Analysis
NOTE: ALL of Section F should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma
   F.1. For each category of incident listed: identify the total number of successful incidents in FY04, the number of incidents reported to US-CERT, and the number
   reported to law enforcement. If your agency considers another category of incident type to be high priority, include this information in category VII, "Other". If
   appropriate or necessary, include comments in the Comment area provided below.
   F.2. Identify the number of systems affected by each category of incident in FY04. If appropriate or necessary, include comments in the Comment area
   provided below.
                                                                             F.1., F.2. & F.3.
                                                                                    F.1.                                                F.2.
                                                                      Number of Incidents, by category:              Number of systems affected, by category, on:



                                                                     F.1.a           F.1.b.          F.1.c.          F.2.a.         F.2.b.             F.2.c.
                                                                  Reported       Reported to US- Reported to law Systems with Systems without       How many
                                                                  internally         CERT         enforcement complete and up- complete and up-     successful
                                                                                                                 to-date C&A     to-date C&A    incidents occurred
                                                                                                                                                     for known
                                                                                                                                                 vulnerabilities for
                                                                                                                                                which a patch was
                                                                                                                                                     available?


                                                                                                                    Number of      Number of       Number of
                                                                 Number of         Number of       Number of         Systems        Systems         Systems
                                                                 Incidents         Incidents       Incidents         Affected       Affected        Affected
     I. Root Compromise                                                      0                 0               0 n/a            n/a            n/a
     II. User Compromise                                                     0                 0               0 n/a            n/a            n/a
     III. Denial of Service Attack                                           0                 0               0 n/a            n/a            n/a
     IV. Website Defacement                                                  0                 0               0 n/a            n/a            n/a
     V. Detection of Malicious Logic                                     33449             33449               0 n/a            n/a            n/a
     VI. Successful Virus/worm Introduction                                 93                93               0 n/a            n/a            n/a
     VII. Other                                                              0                 0               0 n/a            n/a            n/a
                                                      Totals:            33542             33542               0              0              0                           0

Comments:
NRC's reporting of security events changed in December 2003. In the 1st 2 months of FY 2004, NRC reported on 12 types of suspicious activity, and categorized the
events based on a 5 level system. Level 1 events are observations, level 2 - warnings, level 3 - alerts, level 4 - damage, and level 5 - exploits. For the purposes of
reporting successful incidents, only level 3 and higher events would be considered successful. In the 1st 2 months of FY 2004, no level 3 or higher events were
reported. Starting in December 2003, NRC's reports include eight types of events that reflect the eight event types reported in US-CERT statistics. Categories V and
VI were not tracked in NRC reports for October and November 2003. Detection of malicious logic is considered to be viruses/worms detected at the agency's mail
gateway, and by virus detection software on servers and workstations. Successful virus/worm introduction are those that were not detected, and had to be cleaned.
Only workstations (no servers) had any actual "infections."




                                                                                 9 of 10
                                                                            NRC Report to OMB


Section G: Training
NOTE: ALL of Section G should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma

   G.1. Has the agency CIO ensured security training and awareness of all employees, including contractors and those employees with significant IT security
   responsibilities? If appropriate or necessary, include comments in the Comment area provided below.
                                                                                   G.1.
    G.1.a.                    G.1.b.                   G.1.c.                     G.1.d.                              G.1.e.                            G.1.f.

Total number of Employees that received IT        Total number of Employees with significant             Briefly describe training provided         Total costs for
 employees in security awareness training         employees with security responsibilities that                                                      providing IT
     FY04        in FY04, as described in          significant IT received specialized training,                                                  security training in
                 NIST Special Publication             security     as described in NIST Special                                                          FY04
                         800-50                   responsibilities Publications 800-50 and 800-                                                        (in $'s)
                                                                                16



                    Number        Percentage                            Number         Percentage


                                                                                                    Security awareness training course required
     3,468            3,023            87.2%             34                 32             94.1%    for all employees, taken annually. ISSO            $46,300
                                                                                                    training course.
                                                                                   G.2.
                                                                                 Yes or No
   a. Does the agency explain policies regarding peer-to-peer
   file sharing in IT security awareness training, ethics training,                Yes
   or any other agency wide training?
                                                                      Yes            No
Comments:
Total number of employees as of September 21, 2004. The number of employees includes NRC employees and contractors with LAN accounts vs. all
employees at NRC. Only employees and contractors with LAN accounts are required to take awareness training.




                                                                                  10 of 10
